Misc. No. _ _

IN THE
SUPREME COURT OF THE UNITED STATES

MIGUEL FIGUEROA,
Petitioner,
-v-

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Malvina Nathanson
Attorney for Miguel Figueroa

Misc. No.

IN THE
SUPREME COURT OF THE UNITED STATES
October 2020 Term

MIGUEL FIGUEROA,
Petitioner,
-v-

UNITED STATES OF AMERICA,
Respondent.
=====

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Petitioner Miguel Figueroa, who is currently incarcerated, asks leave to file the attached
Petition for a Writ of Certiorari to the United States Court of Appeals for the Second Circuit,
without prepayment of costs and to proceed in forma pauperis pursuant to Rule 39 of this Court.
Annexed hereto is Petitioner's affidavit concerning his financial status.
Dated: August 20, 2020

~~
Malvina Nathanson
Attorney for Miguel Figueroa

Misc. No.

IN THE
SUPREME COURT OF THE UNITED STATES
October 2020 Term

MIGUEL FIGUEROA,
Petitioner,
-v-

UNITED STATES OF AMERICA,
Respondent.

AFFIDA VIT OF MIGUEL FIGUEROA IN SUPPORT
OF MOTION TO PROCEED IN FORMA PAUPERIS
I, Miguel Figueroa, being first duly sworn, depose and say that I am the Petitioner in the
above-entitled case. In support of my motion to proceed without being required to prepay fees,
costs or give security therefor, I state that because of my poverty I am unable to pay the costs of
said proceeding or to give security therefor; that I believe I am entitled to redress; and that the
issue which I desire to present on appeal is the following:
By order entered May 1, 2018, the Court of Appeals for the Second Circuit granted my
motion for the assignment of counsel and assigned counsel pursuant to the Criminal Justice Act,
18 U.S.C. § 3006A.

1

I declare under penaly of perjury that the foregoing is true and correct.

Jf4::f~
Miguel Figue~ a

2

Misc. No. _ _

IN THE
SUPREME COURT OF THE UNITED STATES

MIGUEL FIGUEROA,
Petitioner,
-v-

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
----------

Malvina Nathanson
Attorney for Petitioner
80 Broad Street, Fifth Floor
New York, New York 10004-2257
(212) 608-6771

M isc. No. _ _

----IN T I-IE
SUPREM E COURT OF THE UN ITED STATES

M IGUE L FIGUE ROA,
Petitioner,

-v-

UN ITED STATES OF AME Rl CA,
Respondent.

PETITI ON FOR A WR IT OF CERT IORARJ TO T I-IE
UN IT ED ST ATES COURT OF APP EALS
FOR THE SECOND CIRCUIT

The Petiti oner Miguel Figueroa hereby petiti ons for a writ of certio rari to

rev iew the order of the Uni ted States Court of Appeals fo r the Second Circuit
entered in this proceed ing o n June 3, 2020.
Q uestio n Presented For Rev iew

Whether a de fend ant's statement dur ing a plea co ll oq uy adm itting condu ct
thal could serve as a predica te for a convicti on fo r use o f a g un under 18 U.S .C.
§924(c) suffi ces to estab lish the predicate where the defend ant was not convicted
of the predi cate and his guilty plea to the g un charge did not itselfacknow ledge
th at the plea was predicated o n that conduc t.
2

Parties in the Court Below

The only part ies in the court below were petitioner Miguel Figueroa and the
Un ited States of America as represented by the United States Attorney for the
Eastern Di strict of New Yo rk.
T able of Conte nts
· ·
. I"I ese nte dF or RCVICW
. .... ... ..... ..... .....• ..... .....•... . ?_
Q uestlOn
Parties in the Court Below ........... . ....•.. . . .. ...... . .... . ....•.. . . 3
Op inio n Be low ...... . ... . .. .. . . ... . .• ... . ......... ... . ...... . . ..... 4
Juri sdiction ... .. ..... ... .... . .•.. . ..........•.. . .. • .. ...• ... . . .... 4
Statutory Provisions Invol ved . ... ... . ... . . .. .. . .. . .. . .. .. . .. ... .. ..... 4
Statement of the Case . .......... .. .... . .......... ... .. .... . .. . . ..... 5
Reasons for Granting The Writ .. ..•. . . . . . .......•.. . . .. . .. .. .. .. . . .... 7
Conclusion ..... . ... . .................. .. .... . .. . ........... . .. . . . I I
Addendum: Second C ircu it Opinion .... . .......•.. • ..•..... . ......... A-I
Table of Auth orities
Brown v. United States, 942 F.3d 1069 ( 11th C ir. 20 19) ..... ... . ..... .. 10, II
In re Navarro, 93 1 F.3 d 1298 ( II th C ir. 2019) .. . ..... ...... .. .. .... .. . .. 10
Johnson v. United States, 779 F.3d 125 (2d Cir. 20 15) ....... . . • . .. . . . . .... 8
Morgan v. United States, 2020 WL 1699995 (S ONY 2020) .... .. ..... ... .. . 9
Uni ted States v. Ri vera, 679 Fed. Appx. 5 1 (2d C ir. 20 17) (summary order) .... 8

3

Opinion Below
The opinion of the Court of Appeals for the Second Circuit appears in a
summary order that has not yet appeared in the Federal Appendix. It may be found
at 2020 WL 2892855 and in the Addendum at A-I.

Jurisdiction
The order of the Second Circuit was entered on June 3,2020. This petition
for certiorari is filed within 90 days of that date. This Court's jurisdiction is
invoked under 28 U.S.C. § 1254. Jurisdiction was in the Second Circuit pursuant
to 28 U.S.C. §1291. Jurisdiction was in the district court pursuant to 18 U.S.C.
§3231.

Statutory Provisions Involved
18 U.S.C. §924(c)(1)(A)
Except to the extent that a greater minimum sentence is otherwise
provided by this subsection or by any other provision of law, any
person who, during and in relation to any crime of violence or drug
trafficking crime ... for which the person may be prosecuted in a
court of the United States, uses or carries a fireann ...
18 U.S.C. §924(c)(2)
For purposes of this subsection the term "drug trafficking crime"
means any felony punishable under the Controlled Substances Act ...
21 U.S.C. §841(a)
Except as authorized by this subchapter, it shall be unlawful for any
person knowingly or intentionally - (1) to manufacture, distribute,
or dispense, or possess with intent to manufacture, distribute, or
dispense, a controlled substance; ...

4

.tIJ,J,~.

Statement of the Case
Miguel Figueroa was indicted on June 10, 2013, for conspiracy to distribute
heroin and cocaine and attempted possession of heroin and cocaine. A superseding
indictment filed February 27,2014, added the charges of conspiracy to commit a
Hobbs Act robbery (new count one) and "knowingly and intentionally us[ing] and
carry[ing] a firearm during and in relation to one or more crime of violence and
drug trafficking crimes ... " (count four).
Figueroa entered into a plea agreement in which agreed to plead gUilty to
"Counts One and Four of the above captioned superseding indictment charging
violations of 18 U.S.C. §1951(a), and 18 U.S.C. §924(c)(I)(A)(i)." In listing the
statutory penalties for the crimes to which Figueroa was pleading, the plea
agreement referred to the crimes as "Hobbs Act Robbery Conspiracy" and "Use of
a Firearm in Relation to a Crime of Violence and a Drug Trafficking Crime."
At no point during the remainder of the plea agreement was there any
mention of "narcotics" or "drug trafficking." To the contrary, the agreement
included the government's promise not to bring any further charges "for
[Figueroa's] involvement in (i) the conspiracy to obstruct, delay and affect
commerce and the movement of articles and commodities in commerce, between
January 2013 and May 9,2013, by the robbery ofa drug trafficker in Queens New
York [count one]; and (ii) his use ofa firearm in connection with the above-listed
conspiracy on or about May 9, 2013 [count four]." This language specifically links
the gun charge to the "above-listed conspiracy," that is, the "conspiracy to
5

obstruct, delay and affect commerce and the movement of articles and
commodities in commerce, between January 2013 and May 9,2013, by the
robbery ofa drug trafficker in Queens New York." There is no connection drawn
between the gun and drug trafficking and the government did not agree not to
bring further charges for drug trafficking.
Figueroa entered his plea on June 15, 2015. Throughout the entire plea
proceeding, the gun crime to which Figueroa was pleading was never identified as
anything other than "count four." No part of the indictment, including the
language of count four, was ever read.
The Presentence Report and the judge's statements during sentencing
confirmed the understanding that the plea of guilty was to the use of a gun in
connection with the robbery conspiracy. The Presentence Report explained that
count four charged that Figueroa and others "used and carried a firearm which was
possessed during and in relation to the robbery charged in Counts One through
Three (sic)."
At sentence, in discussing the statutory penalties for the crimes of
conviction, the district judge referred to "the sentencing parameters for Count 4 of
the indictment for use8 of a firearm during a crime of violence" (emphasis added).
In discussing the factors he considered in deciding what sentence to impose, the
judge referred to Figueroa's planning a conspiracy to steal drugs and the
possession of a gun by his co-defendant in connection with that robbery; the
sentence would "satisfy the goal of the Hobbs Act ... to, quote, use all the
6

constitutional powers Congress has to punish interfering with interstate commerce
by extortion, robbery or physical violence."
The understanding of all parties that the Hobbs Act conspiracy was the
predicate crime for the gun charge to which Figueroa pleaded guilty was
confirmed by the government's own statements when it moved to dismiss
Figueroa's judgment appeal. The declaration in support of the motion recited that
Figueroa had pleaded guilty to "unlawful use of a firearm during a crime of
violence." And the memorandum in support of the motion described the gun
conviction in the same way: "unlawful use of a firearm during a crime of
violence."
At the time Figueroa's appeal was decided, this Court had ruled that a
conspiracy to commit a Hobbs Act robbery could not be used as a predicate crime
of violence for purposes of §924(c). This required the government to find a
rationale for the gun conviction other than the one relied on during the district
court proceedings. It came up with the rationale that in describing his criminal
conduct, Figueroa made admissions that constituted a drug trafficking crime, and
that these admissions were equivalent to Figueroa admitting that he was pleading
guilty to using a firearm during a drug trafficking crime. The Second Circuit
accepted this argument (A6-7) and affirmed the conviction in a summary order.

Reasons for Granting The Writ
Certiorari should be granted because the Second Circuit's decision is
without legal foundation and conflicts with an Eleventh Circuit decision.
7

The government's position and the reasoning of the Second Circuit were
premised on the principle that a defendant need not be found guilty of the
underlying predicate for a gun conviction based on that predicate to be valid. That
principle was enunciated in a Second Circuit case, Johnson v. United States, 779
F.3d 125 (2d Cir. 2015), that is inapplicable to this guilty plea case.
In Johnson, the defendant was convicted by a jury of simple bank robbery,
armed bank robbery (for the same conduct), and gun use in connection with simple
bank robbery. Although the simple bank robbery conviction was vacated on
grounds of multiplicity with the armed bank robbery conviction, the court affirmed
the gun charge that specified the simple bank robbery as a predicate, reasoning
that the vacatur of the simple bank robbery conviction did not "call[] into question
the factual basis for that conviction and a conviction on that count was not a legal
prerequisite. 779 F.3d at 128 (emphasis in original). In Figueroa's case there was
no jury verdict to establish the factual basis for a drug trafficking charge.
The other cases on which the Second Circuit relied are also distinguishable.
In United States v. Rivera, 679 Fed. Appx. 51, 55 (2d Cir. 2017) (summary
order), the gun use was explicitly connected to a linked robbery/drug trafficking
crime. Count one of the indictment charged use of a gun "during and relation to a
crime of violence ... the attempted robbery of Jose Miguel Mendez of narcotics
and narcotics proceeds ...." Rivera pleaded guilty to committing the crime alleged
in count one. And during the plea, Rivera admitted that he "was involved in a
narcotics conspiracy" during which he "agreed with another person to assist him in
8

committing a robbery of an individual delivering drugs" and was aware that the
other person possessed a gun he used to commit a murder. The Rivera court was
able to find, based on these facts, that Rivera had admitted to using a gun in the
course of a robbery and a drug trafficking conspiracy. Perhaps most important, the
attempted robbery was and remains a sufficient predicate as a crime of violence.
Figueroa's indictment referred to a "crime of violence" and "drug trafficking"
generically with no linkage, his guilty plea agreement referred to counts of the
indictment rather than to particular actions, the guilty plea was to "count four"
rather than to specific crimes, and the only crime recognized as being connected to
the gun charge was not a sufficient predicate.
In Morgan v. United States, 2020 WL 1699995 (SDNY 2020), the only
issue was whether the defendant had pleaded to use of a gun in connection with a
robbery (a proper predicate) or a conspiracy to commit robbery. The district court
found there was no ambiguity and that the defendant had pleaded to the use of a
gun in connection with a robbery. 2020 WL 1699995 at *2-3.
Thus, unlike in Figueroa's case, in each of these cases there was a sufficient
predicate for the gun charge - a jury verdict, an explicit admission to using a gun
to further drug trafficking, or a plea to use of a gun during a proper predicate
crime. These cases do not provide legal support for the affirmance of a conviction
following a guilty plea, where the defendant never pleaded guilty to using a gun in
connection with drug trafficking, and the predicate to his guilty plea was not a
crime of violence.
9

Not only is there no legal precedent for the Second Circuit's decision, it
conflicts with Brown v. United States, 942 F.3d 1069 (11th Cir. 2019), an
Eleventh Circuit decision. Brown was decided less than four months after its
decision in In re Navarro, 931 F.3d 1298 (11 th Cir. 2019), a case that, on the
surface, supports the Second Circuit decision. But Brown made clear that the
Eleventh Circuit and the Second Circuit take opposite positions. In Navarro, the
indictment alleged a §924( c) violation predicated on both crime of violence and
drug trafficking charges. By the plea agreement, which he confirmed at the plea,
Navarro agreed to plead guilty to counts charging him with "knowingly using and
carrying a firearm during and in relation to a crime of violence and a drug
trafficking crime ...." In addition, the government's factual proffer, which Navarro
acknowledged was true, established that Navarro had acted in connection with
drug trafficking. The Eleventh Circuit affirmed the conviction.
Brown distinguished Navarro on the ground that the affirmance of
Navarro's conviction hinged on the specific references to drug trafficking in
Navarro's plea agreement and factual proffer. By contrast, the parties in Brown
repeatedly acknowledged that Brown was pleading guilty to §924(c)(I)(A) "as
predicated solely upon 'a crime of violence -

and specifically on the crime of

violence that was charged in Count I of the indictment -

conspiracy to commit

Hobbs Act robbery." 942 F.3d at 1074. The Brown court stated, "Regardless of the
content of [the stipulated factual proffer], it could not render Brown convicted of a

10

crime to which he did not actually plead guilty." 942 F.3d at 1074, n. 4. It was the
plea itself, and not the factual proffer, that controlled.
Thus there is a conflict between the Eleventh Circuit and the Second
Circuit. The Eleventh Circuit, ignoring the content of the factual proffer, would
have reversed Figueroa's conviction; the Second Circuit affirmed it. This Court
should grant the petition to resolve this conflict.
Conclusion

For these reasons, a writ of certiorari should issue to review the order of the
United States Court of Appeals for the Second Circuit.
Dated: August 26, 2020
Respectfully submitted,

Malvina NathailSOIl
Attorney for Petitioner Miguel Figueroa

11

Case 16-1653, Document 141-1,06/03/2020, 2853102, Page1 of 10

16-1653-cr

United States v. Miguel Figueroa

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1,2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE
OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE
FEDERAL ApPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION "SUMMARY ORDER"). A
PARTY CITING A SUMMARY ORDER MUST SERVE A COpy OF IT ON ANY PARTY NOT REPRESENTED
BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 3rd day of June, two thousand twenty.
PRESENT:

ROBERT D. SACK,
RICHARD C. WESLEY,
DENNY CHIN,

Circuit Judges.

----------------------------------------x
UNITED STATES OF AMERICA,

Appellee,
16-1653-cr

-v-

MIGUEL FIGUEROA,

Defendant-Appellant,
JOSHUA ORTIZ ROLON, AUGUSTIN TANCO,

Defendants.

----------------------------------------x
FOR APPELLEE:

DA VID J. LIZMI, Assistant United States
Attorney (David C. James, Assistant United

A-I

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page2 of 10

States Attorney, on the briej),for Richard P.
Donoghue, United States Attorney for the
Eastern District of New York, Brooklyn, New
York.
FOR DEFENDANT-APPELLANT:

MALVINA NATHANSON and Nicholas J.
Pinto, New York, New York.

Appeal from the United States District Court for the Eastern District of
New York (Kuntz, ].).
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgment of the district court is AFFIRMED.
Defendant-appellant Miguel Figueroa appeals from a judgment entered
May 20, 2016, convicting him, upon his guilty plea, of conspiracy to commit Hobbs Act
robbery in violation of 18 U.S.c. § 1951(a), and use of a firearm in violation of 18 U.S.c.
§ 924(c)(1)(A). The district court sentenced Figueroa principally to 248 months'
imprisonment, to be followed by five years of supervised release. On appeal, Figueroa
challenges his § 924(c) conviction on the grounds that the predicate offense of Hobbs
Act robbery conspiracy is no longer a "crime of violence" in light of the Supreme Court's
decision in United States v. Davis, -

U.S. --,139 S. Ct. 2319, 204 L.Ed.2d 757 (2019),

and this Court's decision in United States v. Barrett, 937 F.3d 126 (2019). We assume the
parties' familiarity with the underlying facts, the procedural history of the case, and the
issues on appeal.

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page3 of 10

Figueroa and two co-defendants were indicted on June 10,2013, for
conspiracy to distribute heroin and cocaine (Count One) and attempted possession of
cocaine and heroin (Count Two), between January 1, 2013 and May 9,2013. Eight
months later, on February 27, 2014, a superseding indictment was filed charging
Figueroa with: conspiracy to commit a Hobbs Act robbery (Count One), the same two
narcotics offenses (renumbered Counts Two and Three), and unlawful use of a firearm
"in relation to one or more crime of violence and drug trafficking crimes, to wit: the
crimes charged in Counts One through Three," in violation of 18 U.S.c. § 924(c) (Count
Four). See Gov't App'x at 2-4.
On June 15,2015, Figueroa pled guilty to Count One of the superseding
indictment charging Hobbs Act robbery conspiracy and Count Four charging the
unlawful use of a firearm. As part of the plea agreement, the government agreed to
dismiss the narcotics offenses charged in Counts Two and Three. At his plea allocution,
Figueroa admitted that the purpose of the robbery conspiracy charged in Count One
and firearm offense charged in Count Four was to obtain narcotics for distribution:
DEFENDANT: ... I was called and I was offered. They
called me, they wanted to talk to me, they came over, they
offered me some drugs to sell for them and I agreed to it.
THE COURT: Okay. They called you and they offered you
some drugs to sell for them and they agreed to it.
DEFENDANT: Yeah, I agreed to it, to sell for them.

Case 16-1653, Document 141-1,06/03/2020,2853102, Page4 of 10

DEFENDANT: And then May 9th they called me and I met
up with them, and when I got there the plan was, you know,
somebody was supposed to buy and then, the guy, he never
had the money for it ... he never had the money to buy the
[l drugs, so my plan was to just go over there when they
gave me the money, to just, my plan was to go over there
when they gave me the drugs I was going to just disappear
and Ortiz was with us . . .. He asked me, you think I should
bring a gun? And I was like, I mean, you could bring it just
in case we need it, but I don't think we going to need it
because if they [the drug suppliers] give it to me, I'm just
going to disappear on them, I'm not going to come back.

DEFENDANT: ... on May 9th I intended to take the drugs
because the guy never had no money. He told me I don't got
no money for that. So, I was like, I'm just going to take it
then.
THE COURT: Once you took the drugs, what was your
intent?
DEFENDANT: I mean, I have no choice but to sell it.
App'x at 48-51, 53-54.
On May 3, 2016, the district court sentenced Figueroa principally to 248

months' imprisonment after finding that Figueroa qualified as a career offender
pursuant to U.S.S.G. § 4B1.1 (a). The district court noted that Figueroa "planned and
coordinated a conspiracy to steal a large volume of illegal drugs worth hundreds of
thousands of dollars ... [and] was aware that [his co-defendant] possessed a loaded
handgun that could be used for violent purposes if the situation escalated." App'x at 77.

A-

4

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page5 of 10

Judgment was entered May 20, 2016. On appeal, Figueroa challenged the
appeal waiver in his plea agreement and the validity of his § 924(c) conviction, in light
of the Supreme Court's decision in Johnson v. United States, 135 S. Ct. 2551 (2015). Citing
the appeal waiver, the government moved to dismiss Figueroa's appeal. On June 20,
2017, this Court granted the government's motion "with respect to Appellant's appeal of
his term of imprisonment" but denied the motion "with respect to his appeal of his
conviction under 18 U.S.c. § 924(c)." App. Ct. Dkt. 68. This Court also stayed the
appeal "pending final decisions in United States v. Hussain (Barrett), 2d Cir. 14-2641, and

United States v. Hill, 2d Cir. 14-3872." Id. On December 17, 2019, Figueroa moved, with
the government's consent, to lift the stay, and this Court granted that motion the
following day.

DISCUSSION
On appeal, Figueroa argues that his § 924(c) conviction, for unlawful use

of a firearm, must be vacated because Hobbs Act robbery conspiracy is not a crime of
violence under § 924(c)(3) in light of the Supreme Court's ruling in Davis, 139 S. Ct.
2319. Figueroa did not raise this objection below, however, nor could he inasmuch as
the Supreme Court decided Davis subsequent to Figueroa's conviction. We therefore
review the validity of the conviction for either plain error or modified plain error. See

United States v. Nikolla, 950 F.3d 51, 53 (2d Cir. 2020); United States v. Botti, 711 F.3d 299,
308-09 (2d Cir. 2013). "[We] look not to the law at the time of the trial court's decision to

A-

5

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page6 of 10

assess whether the error was plain, but rather, to the law as it exists at the time of
review." United States v. Vilar, 729 F.3d 62,71 (2d Cir. 2013).
Section 924(c) prohibits the use, carrying, or possession of a firearm
during or in relation to a "crime of violence or drug trafficking crime." 18 U.S.c.
§ 924(c)(1)(A). At the time of Figueroa's conviction, § 924(c)(3) offered two valid
definitions for the "crime of violence" element of § 924(c)(1)(A): a felony that either "(A)
has as an element the use, attempted use, or threatened use of physical force against the
person or property of another, or (B) that by its nature, involves a substantial risk that
physical force against the person or property of another may be used in the course of
committing the offense." Id. § 924(c)(3).
The Supreme Court in Davis held that § 924(c)(3)(B) is unconstitutionally
vague. 139 S. Ct. at 2326-27. And following the Supreme Court's decision in Davis, this
Court concluded that Hobbs Act robbery conspiracy does not qualify as a § 924(c) crime
of violence under § 924(c)(3)(A). See Barrett, 937 F.3d at 127. Accordingly, in light of
these decisions, Figueroa contends that his § 924(c) conviction must be vacated because
Hobbs Act robbery conspiracy cannot serve as a predicate offense as it no longer
qualifies as a crime of violence. The government concedes that Figueroa's § 924(c)
conviction can no longer be predicated on his Hobbs Act robbery conspiracy offense,
but argues that his conviction should be affirmed nonetheless because Figueroa's

4-6

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page? of 10

indictment and plea allocution are sufficient to establish that he used and carried a
firearm in connection with a drug-trafficking crime. We agree with the government.
Count Four charged Figueroa with unlawful use of a firearm "in relation
to one or more crime of violence and drug trafficking crimes, to wit: the crimes charged in
Counts One through Three." Gov't App'x at 4 (emphasis added). The plea agreement,
which Figueroa signed and affirmed he had read and understood, specifically stated
that Figueroa was agreeing to "plead guilty to ... use of a firearm in relation to a crime
of violence and a drug trafficking crime." App'x at 19 (emphasis added). And the
judgment makes clear that Figueroa was convicted of Count Four as charged in the
superseding indictment, and therefore predicated on Counts One through Three. 1
Count Two charged Figueroa with conspiring to distribute and possess
with intent to distribute heroin and cocaine. Gov't App'x at 3. Count Three charged
Figueroa with attempting to distribute and possess with intent to distribute heroin and
cocaine. ld. These counts were dismissed following sentencing. But that does not
necessarily affect predication for purposes of § 924(c).
A § 924(c) conviction does not require a conviction on the predicate
offense "so long as there is legally sufficient proof that the predicate crime was, in fact,

That the judgment referred to Count Four elsewhere as the offense of "unlawful use of a
firearm during a crime of violence," App'x at 94, has no effect on the predication for Count Four
or the fact that Figueroa pleaded guilty to and was convicted of using or carrying a firearm "in
relation to one or more crime of violence and drug trafficking crimes, to wit: the crimes charged
in Counts One through Three," Gov't App'x at 4.

1)-

7

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page8 of 10

committed." Johnson v. United States, 779 F.3d 125, 129 (2d Cir. 2015); see also United

States v. Rivera, 679 Fed. App'x 51, 55-56 (2d Cir. 2017) (summary order) (defendant's
plea allocution provided factual basis for underlying predicate crime); Morgan v. United

States, No. 12-cr-464 (PAC), 2020 WL 1699995, at *2 (S.D.N.Y. Apr. 8, 2020) ("Petitioner's
own allocution provided the factual basis for the underlying Hobbs Act robbery
offense."). Here, Figueroa allocuted sufficiently to committing at least one valid
predicate offense -- the drug trafficking crime charged in Count Three.
The elements of Count Three are that the defendant: (1) intended to
commit the crime of possession with intent to distribute, and (2) did some act that was a
substantial step in an effort to bring about or accomplish that crime. See 3 Sand Modern
Federal Jury Instructions ~ 10.01; see also United States v. Anderson, 747 F.3d 51, 74-75 (2d
Cir. 2014). The crime of possession with intent to distribute narcotics requires proof
that: the defendant (1) knowingly (2) possessed narcotics (3) with the specific intent to
distribute them. See 3 Sand Modem Federal Jury Instructions 'j[ 56.01; United States v.

Gore, 154 F.3d 34, 45 (2d Cir. 1998).
Figueroa admitted that, between November 2012 and May 2013, he had
numerous meetings and conversations in which two individuals who purported to be
drug suppliers offered Figueroa drugs that he could then resell. See App'x at 48-55.
Figueroa explained that he had agreed to purchase drugs from these suppliers and, on
May 9,2013, traveled to Green Acres mall to meet with "them" and either buy or steal

11--

8

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page9 of 10

the drugs. App'x at 50-51,54. Figueroa stated that he knew his codefendant, who had
accompanied Figueroa to the May 9 meeting but did not get out of the car, had a gun
with him and -- in the district court's words, with which Figueroa agreed -- "had
[Figueroa's] back." App'x at 56-57. These statements constitute legally sufficient proof
of the drug trafficking crime charged in Count Three. See United States v. Martinez, 775
F.2d 31, 35 (2d Cir. 1985) (stating that a "substantial step must be something more than
mere preparation, yet may be less than the last act necessary before the actual
commission of the substantive crime" (quoting United States v. Manley, 632 F.2d 978, 98889 (2d Cir. 1980»).2
Moreover, Figueroa's allocution established that the gun was used or
carried during and in relation to the drug trafficking offense charged in Count Three.

See generally United States v. Lewter, 402 F.3d 319, 322 (2d Cir. 2005) (holding nexus
between firearms offense and drug-trafficking crime sufficient so long as "gun afforded
some advantage (actual or potential, real or contingent) relevant to the vicissitudes of
drug trafficking").

See also United States v. Moss, 221 Fed. App'x 79, 81 (2d Cir. 2007) (summary order)
(concluding that the defendant's actions "gather[ingJ over $24,000 in cash and show[ing] it to his
prospective seller to demonstrate his willingness to complete the deal" constituted a substantial
step and was sufficient to support the attempt conviction); United States v. Pino-Correa, 185 Fed.
App'x 65, 67 (2d Cir. 2006) (summary order) (concluding that there was a substantial step where
the defendant met with the seller with the understanding that "the sale was to be consummated
on site").
2

/)-9

Case 16-1653, Document 141-1, 06/03/2020, 2853102, Page10 of 10

In sum, the superseding indictment and plea agreement gave Figueroa

clear notice that the narcotics offenses charged in Counts Two and Three -- in addition
to the Hobbs Act robbery conspiracy charged in Count One -- were predicates for the
§ 924(c) count. Further, Figueroa's plea allocution contained legally sufficient proof of

the drug trafficking crime charged in Count Three. Accordingly, Figueroa's § 924(c)
conviction under Count Four of the superseding indictment is valid. 3 We thus find no
error, let alone plain error, in his sentence.
It

It

It

We have considered Figueroa's remaining arguments and conclude they
are without merit. For the foregoing reasons, we AFFIRM the judgment of the district
court.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

We decline to address Figueroa's challenge to his career offender status under V.S.S.G. §
4B1.1 (a) because this Court rejected this claim in its June 20, 2017 Order in response to the
government's motion to dismiss Figueroa; appeal.
3

If -

10

